                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                


                     EPA Can Improve Its Improper
                     Payments Reporting

                     Report No. 12-P-0311           March 1, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Melinda Burks
                                                   Janet Kasper
                                                   Madeline Mullen
                                                   Nicole Pilate
                                                   Wendy Swan




Abbreviations

AFR           Agency Financial Report
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
IPERA         Improper Payments Elimination and Recovery Act
OCFO          Office of the Chief Financial Officer
OGD           Office of Grants and Debarment
OIG           Office of Inspector General
OMB           Office of Management and Budget
SRF           State Revolving Fund




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             12-P-0311
                                                                                                        March 1, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Can Improve Its Improper Payments Reporting
Office of Management and            What We Found
Budget (OMB) guidance for
implementation of the 2010          The U.S. Environmental Protection Agency (EPA) complied with IPERA in that
Improper Payments                   it reported all required information on improper payments, but EPA can improve
Elimination and Recovery Act        the accuracy and completeness of the information. In the Fiscal Year 2011
(IPERA) specifies                   Agency Financial Report (AFR), EPA reported the results of its efforts to
responsibilities of agencies and    recapture improper payments. EPA is taking actions to improve internal controls
inspectors general. Agencies        in preventing, reducing, and recapturing improper payments.
are required, among other
things, to report on improper       EPA did not report all improper payments identified in audits and reviews of
payments, and inspectors            grants to tribes, state and local governments, and universities in the FY 2011
general are required to             AFR. IPERA requires that agencies report on all actions to detect and recover
determine whether the agency        improper payments. EPA did not update its detection and reporting procedures to
is in compliance with IPERA.        identify all grant improper payments as required by IPERA. As a result, EPA
                                    understated grant improper payments by thousands of dollars. The Office of
Background                          Grants and Debarment has developed draft guidance and plans to report all grant
                                    improper payments in the FY 2012 AFR. If it does not do so, grant improper
Each year, the federal              payments will continue to be understated.
government wastes billions of
taxpayer dollars on improper        The Agency is not reporting discounts not taken as improper payments.
payments to individuals,            According to IPERA, any payment that does not account for credit for applicable
organizations, and contractors.     discounts is considered an improper payment. In EPA’s opinion, there are valid
Such payments can be made in        reasons why certain discounts cannot be taken. In such cases, discounts should be
the wrong amount, to the            considered “non-applicable” for improper payments reporting purposes.
wrong entity, or for the wrong
reason. Despite efforts to          EPA did not correctly calculate improper payments reported in the FY 2011
reduce improper payments, all       AFR. OMB Memorandum M-11-16 requires inspectors general to evaluate the
federal agencies reported an        accuracy and completeness of agency reporting. Errors occurred because EPA’s
estimated $125 billion in           Office of the Chief Financial Officer did not issue guidance to ensure the
improper payments for fiscal        accuracy of improper payment reporting. As a result, EPA understated its error
year (FY) 2010.                     rate for State Revolving Fund programs and made errors in its consolidation of
                                    data.

                                    What We Recommend

For further information, contact    We recommend that EPA issue guidance requiring that the results of all grant
our Office of Congressional and     improper payment determinations and recaptures, as well as discounts not taken
Public Affairs at (202) 566-2391.   as improper payments, be reported. We also recommend that EPA issue guidance
The full report is at:
                                    to program offices to ensure the quality of reported information. EPA agreed with
www.epa.gov/oig/reports/2012/       three of the four recommendations; it did not agree with the recommendation that
20120301-12-P-0311.pdf              EPA report discounts not taken as improper payments. That recommendation is
                                    unresolved with resolution efforts in progress.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                               THE INSPECTOR GENERAL



                                         March 1, 2012

MEMORANDUM

SUBJECT:	 EPA Can Improve Its Improper Payments Reporting
          Report No. 12-P-0311


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Barbara J. Bennett
               Chief Financial Officer

               Craig E. Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends.

The Improper Payments Elimination and Recovery Act (IPERA) and Office of Management and
Budget guidance require the Inspector General to distribute this report to the following
individuals and organizations:

      The Senate Homeland Security and Government Affairs Committee
      The House Committee on Oversight and Governmental Reform
      The Comptroller General
      The Controller of the Office of Management and Budget
We have provided the report to these individuals and organizations under a separate transmittal.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper at (312) 886-3059 or kasper.janet@epa.gov.
EPA Can Improve Its Improper                                                                                                12-P-0311
Payments Reporting


                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                2     

                Scope and Methodology ..............................................................................               2     


   2    EPA Should Improve Grant Improper Payment Reporting.............................                                           4


                Grant Reporting Did Not Include All Programs and Activities......................                                  4

                EPA Did Not Update Procedures ................................................................                     5

                Recommendations ......................................................................................             5     

                Agency Response and OIG Evaluation .......................................................                         6


   3    EPA Should Report Discounts Not Taken as Improper Payments................                                                 7


                IPERA Defines Discounts Not Taken as Improper Payments .....................                                       7

                EPA Is Not Reporting Discounts Not Taken ................................................                          7

                EPA Is Awaiting Guidance From OMB ........................................................                         8

                Recommendation ........................................................................................            9     

                Agency Response and OIG Evaluation .......................................................                         9


   4    EPA Should Address Other Improper Payment Reporting Errors ................                                               10 


                EPA’s SRF Error Rate Calculation Method and Process for 

                  Consolidating Information Resulted in Reporting Errors ........................                                 10 

                Recommendation ........................................................................................           11     

                Agency Response and OIG Evaluation .......................................................                        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                        12




Appendices
   A    Agency Response to Draft Report....................................................................                       13


   B    Distribution .........................................................................................................    19

                                           Chapter 1

                                           Introduction
Purpose
                 The Office of Management and Budget (OMB) issued government-wide guidance
                 for implementation of the 2010 Improper Payments Elimination and Recovery
                 Act (IPERA) on April 14, 2011.1 The guidance updated requirements for
                 measurement and remediation of improper payments. Agencies are required to
                 report on improper payments, and inspectors general are required to review
                 agency reporting. Our objective was to determine whether the U.S. Environmental
                 Protection Agency (EPA) is in compliance with IPERA.

Background
                 IPERA became law on July 22, 2010. It amended the Improper Payments
                 Information Act of 2002. IPERA requires that each agency periodically review
                 and identify all programs and activities that may be susceptible to significant
                 improper payments.2 The Act also significantly increased requirements for
                 payment recapture efforts by expanding the types of payments that must be
                 reviewed and by lowering the threshold of annual outlays that requires agencies to
                 conduct payment recapture audit programs.

                 IPERA defines an improper payment, in relevant part, as any payment that should
                 not have been made or that was made in an incorrect amount, any payment to an
                 ineligible recipient, any payment for an ineligible good or service, any duplicate
                 payment, any payment for a good or service not received, and any payment that
                 does not account for credit for applicable discounts. OMB guidance expanded the
                 improper payment definition to include payments without sufficient documentation.
                 Agencies are to report on improper payments:

                         Voluntarily returned by contractors
                         Used to offset future payments
                         Identified and returned to the agency through Office of Inspector General
                          (OIG) efforts, such as audits, reviews, or tips from the public
                         Identified and recovered through management post-payment reviews and
                          close-out3

1
   As its title suggests, OMB Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB
Circular A-123, revised OMB Circular A-123, Appendix C, Parts I and II.
2
   IPERA defines “significant” as gross annual improper payments in the program exceeding (1) both 2.5 percent of
program outlays and $10 million of all program or activity payments made during the fiscal year reported, or
(2) $100 million (regardless of the improper payment percentage of total program outlays). 
 
3
   OMB Memorandum M-11-04, Increasing Efforts to Recapture Improper Payments by Intensifying and Expanding

Payment Recapture Audits.
 


12-P-0311                                                                                                       1
                 Each fiscal year, inspectors general are required to determine whether agencies
                 are in compliance with IPERA.4 Compliance means that the agency has:

                    	 Published an Agency Financial Report (AFR) for the most recent fiscal
                       year and posted it on the agency website
                     Conducted a program-specific risk assessment (if required)
                     Published improper payment estimates for all programs and activities
                       identified as susceptible to significant improper payments (if required)
                     Published programmatic corrective action plans (if required)
                     Published and met annual reduction targets for each program assessed to
                       be at risk and measured for improper payments
                    	 Reported a gross improper payment rate of less than 10 percent for each
                       program and activity for which an improper payment estimate was
                       obtained and published in the AFR
                    	 Reported information on efforts to recapture improper payments

                 An agency is not compliant if it does not meet one or more of these requirements.
                 Inspectors general should evaluate (1) the accuracy and completeness of agency
                 reporting, and (2) agency performance in reducing and recapturing improper
                 payments. Inspectors general should include any recommendations to improve
                 agency performance in reducing improper payments.

Noteworthy Achievements
                 EPA complied with IPERA in that it reported all required information on
                 improper payments. Further, EPA is taking actions to improve internal controls
                 for preventing, reducing, and recapturing improper payments. For example, EPA:

                       Emphasizes adherence to sound internal controls that prevent the
                        occurrence of improper payments, and aggressively recovers them
                       Initiated an Agency-wide effort to review and verify implementation of
                        the American Recovery and Reinvestment Act Stewardship Plan
                       Corrected errors and recovered improper payments from State Revolving
                        Funds (SRFs)
                       Maintains an internal improper payment recapture audit program in which
                        Agency employees review grants, contracts, commodities, and SRF funds
                       Met OMB’s recovery target rates for improper payments

Scope and Methodology
                 We conducted this compliance audit from November 2011 to January 2012 in
                 accordance with generally accepted government auditing standards, issued by the
                 Comptroller General of the United States. Those standards require that we plan
                 and perform the audit to obtain sufficient, appropriate evidence to provide a
4
     OMB Memorandum M-11-16.


12-P-0311                                                                                          2
            reasonable basis for our findings and conclusions based on our audit objective.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objective.

            To determine whether EPA is in compliance with IPERA, we reviewed EPA’s
            fiscal year (FY) 2011 AFR and accompanying materials. We interviewed Agency
            staff at EPA headquarters from the Office of the Chief Financial Officer (OCFO),
            the Office of Grants and Debarment (OGD), and the Office of Water. We also
            interviewed OCFO staff from the Research Triangle Park Finance Center. We
            gained an understanding of the processes, procedures, and controls used for
            IPERA reporting across the three payment streams (grants, commodities and
            contracts, and SRF funds). We traced judgmental samples of reported improper
            payments from each payment stream back to source documentation to test the
            accuracy of improper payments reporting in EPA’s FY 2011 AFR.

            We used information from several EPA data systems during our work:

                  Integrated Grants Management System
                  Contract Payment System
                  Small Purchase Information Tracking System
                  Financial Data Warehouse

            We verified the information in the systems to source documentation and
            concluded that the information provides a reasonable basis for our findings and
            conclusions.

            We evaluated EPA finance centers’ internal controls regarding improper
            payments, and we considered general controls implemented to identify and report
            improper payments.

            Prior Audit Coverage

            In EPA OIG Report No. 11-P-0362, EPA Needs to Reexamine How It Defines Its
            Payment Recapture Audit Program, issued July 19, 2011, we provided feedback
            regarding EPA’s improper payments reporting in the FY 2010 AFR. During the
            current audit, we followed up on Agency corrective actions from this prior audit,
            as explained in chapter 2.




12-P-0311                                                                                       3
                                              Chapter 2

                               EPA Should Improve Grant 

                              Improper Payment Reporting 

                     EPA did not report all improper payments identified in audits and reviews of
                     grants to tribes, state and local governments, and universities in the FY 2011
                     AFR. IPERA requires that agencies report on all actions to detect and recover
                     improper payments, including the amounts recovered, outstanding, and
                     determined to be not collectible. EPA did not update its detection and reporting
                     procedures to identify all grant improper payments as required by IPERA. As a
                     result, EPA understated grant improper payments by thousands of dollars. OGD
                     has developed draft guidance and plans to report all grant improper payments in
                     the FY 2012 AFR. If OGD does not do so, grant improper payments will continue
                     to be understated.

Grant Reporting Did Not Include All Programs and Activities
                     In the FY 2011 AFR, EPA did not report all grant improper payments to tribes,
                     state and local governments, and universities that were identified in audits and
                     reviews. According to IPERA, the head of each agency shall report on all actions
                     the agency is taking to detect and recover improper payments, including the
                     amounts recovered, outstanding, and determined to be not collectible. For
                     FY 2011, EPA only reported improper payments for one nonprofit grant in the
                     amount of $7,110.5 However, our sampling identified over $486,000 of grant
                     improper payments and over $435,000 of recaptured improper payments that
                     should have been reported in the FY 2011 AFR (table 1).
                                                                  a
    Table 1: Examples of unreported improper payments
       Type of                                                                         Improper        Amount
       grantee              Grantee name            Type of review    Billed date      payment       recaptured
                       Michigan Biotechnology
     Nonprofit         Institute                    OIG audit         01/05/2010     $275,297.94     $275,297.94
                       International City/
     Nonprofit         County Mgmt. Assoc.          OIG audit         12/01/2010       157,393.00      157,393.00
     Tribe             Pedro Bay Village            Grant close-out   04/20/2010        34,051.58        2,745.46
     Tribe             Alaska Intertribal Council   Grant close-out   07/27/2010        19,600.62             0.00
                                                                         Total       $486,343.14     $435,436.40
    Source: OIG analysis of EPA data.

             a
                 OMB approved EPA’s reporting of calendar year 2010 grant improper payments for the FY 2011 AFR.


5
  EPA sampled nonprofit grantees and conducted advanced monitoring reviews to assess recipients’ administrative,
programmatic, and financial progress.


12-P-0311                                                                                                          4
            EPA detects, reports, and recaptures improper payments through baseline and
            advanced monitoring, but only reported on improper payments detected from a
            sample of nonprofit grantees. Also, EPA has knowledge of improper payments
            detected through OIG and other audits, but the information is not always included
            in the compliance database, and therefore is not reported. OGD has never required
            regions to record these audits in the compliance database. Our review of the
            compliance database found that final determinations from audits and management
            reviews were not always recorded or updated when appeals were completed.

            In EPA OIG Report No. 11-P-0362, EPA Needs to Reexamine How It Defines Its
            Payment Recapture Audit Program, issued July 19, 2011, we recommended that
            the Agency include all programs and activities in the FY 2011 AFR. EPA
            reported in its Management Audit Tracking System that it completed the
            corrective action for the OIG recommendation on November 15, 2011. However
            the issue has not yet been corrected. OGD officials stated in December 2011 that
            there was miscommunication regarding what would be reported in the FY 2011
            AFR. OGD could not update its systems and procedures quickly enough to
            capture all the information required for the FY 2011 AFR.

EPA Did Not Update Procedures
            EPA did not update its detection and reporting procedures to identify all grant
            improper payments as required by IPERA. EPA continued to follow its pre-
            IPERA reporting procedures, which required reporting only on a sample of
            nonprofit advanced monitoring reviews.

            In December 2011, OGD officials stated that they agreed with our
            recommendation to issue guidance on capturing information on improper
            payments. They provided draft guidance, which OGD developed to comply with
            IPERA, and explained their plans for updating the compliance database. OGD
            plans to provide personnel with additional guidance about what, how, and when
            improper payments should be reported.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1.	 Issue guidance requiring that the results of all grant improper payment
                   determinations and recaptures be documented in the compliance database
                   and reported in the FY 2012 AFR.




12-P-0311                                                                                      5
            We recommend that the Office of the Chief Financial Officer and the Assistant
            Administrator for Administration and Resources Management:

               2.	 Continue to track in the Management Audit Tracking System the
                   recommendation in OIG Report No. 11-P-0362—to include in the AFR all
                   improper payments identified through EPA reviews and OIG financial and
                   single audits—until the corrective actions are completed.

Agency Response and OIG Evaluation
            EPA concurred with our recommendations and proposed the following corrective
            actions:

                  OGD will complete additional refinements to the draft guidance prepared
                   during this audit. EPA expects to issue final guidance in April 2012.
                  OGD will include all improper payments in EPA’s AFR; proposed
                   completion date is November 15, 2012.
                  OCFO reopened corrective actions in the Management Audit Tracking
                   System for the prior OIG IPERA audit report on February 7, 2012.

            The proposed actions meet the intent of recommendations 1 and 2. EPA’s
            complete response is in appendix A.




12-P-0311                                                                                    6
                                             Chapter 3

             EPA Should Report Discounts Not Taken as 

                       Improper Payments 

                    The Agency is not reporting discounts not taken as improper payments.
                    According to IPERA, any payment that does not account for credit for applicable
                    discounts is considered an improper payment. In EPA’s opinion, there are valid
                    reasons why certain discounts cannot be taken. In such cases, discounts should be
                    considered “non-applicable” for improper payments reporting purposes. By taking
                    this position, EPA understated FY 2011 improper payments reporting for the
                    commodities and contracts payment stream.6

IPERA Defines Discounts Not Taken as Improper Payments
                    According to IPERA, any payment that does not account for credit for applicable
                    discounts is considered an improper payment. Specifically, IPERA defines
                    improper payments as follows:

                            The term improper payment (A) means any payment that should
                            not have been made or that was made in an incorrect amount
                            (including overpayments and underpayments) under statutory,
                            contractual, administrative, or other legally applicable
                            requirements; and (B) includes any payment to an ineligible
                            recipient, any payment for an ineligible good or service, any
                            duplicate payment, any payment for a good or service not received
                            (except for such payments where authorized by law), and any
                            payment that does not account for credit for applicable discounts.
                            (Emphasis added)

EPA Is Not Reporting Discounts Not Taken
                    The Agency is not reporting discounts not taken for commodities and contracts as
                    improper payments as required by IPERA. When paying contractors, EPA may be
                    offered discounts if payments are made by a certain date. The Research Triangle
                    Park Finance Center identifies and tracks discounts not taken on contractor and
                    commodities payments, along with the reasons discounts were not taken. In
                    FY 2011, discounts not taken for commodities and contracts totaled $45,940.27
                    (table 2).




6
    Commodity payments are simplified acquisitions such as small purchases and training.


12-P-0311                                                                                             7
            Table 2: Unreported discounts not taken
             Type of payments                   Discount not taken
             Commodities                                $29,218.61
             Contracts                                  $16,721.66
             Total                                      $45,940.27
            Source: OIG analysis of EPA data.


EPA Is Awaiting Guidance From OMB
            OCFO management does not believe that OMB intended to have federal agencies
            identify all discounts not taken as improper payments and has requested
            clarification from OMB on the requirements for reporting discounts not taken. In
            EPA’s opinion, there are valid reasons why certain discounts cannot be taken. In
            such cases, discounts should be considered “non-applicable” for improper
            payments reporting purposes.

            OCFO management expressed concern to the OIG that making payments prior to
            reviewing invoices to obtain a discount might weaken management controls.
            Agency officials stated that they may not be able to take a discount for a myriad
            of reasons, such as:

                    Insufficient time to review invoices
                    Percentage rate offered not sufficient to generate a cost-effective discount
                    Project officer approval not available

            The Agency does track the reasons why discounts are not taken and will in the
            future report improper payments in certain instances, such as:

                    Wrong discount percentage was taken
                    Discount taken beyond the specified discount period

            In these instances, the Agency believes the amount of the discount taken would be
            in error (i.e., improper), and it will include these improper payments in its IPERA
            reporting. The Agency does not believe that discounts not taken result in an
            improper payment, if the vendor was paid the proper amount due. However, OMB
            guidance does not provide any additional clarification of what is in the IPERA
            law in regards to discounts not taken being reported as improper payments. Until
            OMB issues a clarification, the plain reading of IPERA requires EPA to report all
            discounts not taken.




12-P-0311                                                                                           8
Recommendation
                We recommend that the Office of the Chief Financial Officer:

                    3.	 Report discounts not taken as improper payments under IPERA, starting
                        with the FY 2012 AFR, unless clarification from OMB states otherwise.

Agency Response and OIG Evaluation
                EPA respectfully disagreed with this recommendation and stated that the OIG’s
                interpretation of improper payments for discounts is overly broad. EPA based its
                position on OMB Memorandum M-11-167, which states that an improper
                payment is “any payment that does not account for credit for applicable
                discounts.” EPA interprets “applicable discounts” as only those discounts for
                which claiming them is both advantageous and within the Agency’s control. EPA
                cited reasons for which discounts cannot be taken and should not be considered
                improper payments. EPA cited an OMB memorandum that encourages agencies
                to pay small business contractors within 15 days while maintaining necessary
                internal controls. EPA emphasized that maintaining internal controls is necessary
                when deciding whether to take a discount.

                EPA acknowledged that there are situations in which discounts ought to be
                reported as improper payments, such as when the wrong discount percentage is
                taken or when the discount is taken beyond the specified discount period. EPA
                also pointed out that during FY 2011 it successfully claimed discounts worth
                $333,641 compared with $45,940 of discounts not taken.

                EPA requested that the recommendation be revised to “report discounts not taken
                as improper payments under IPERA when it is both advantageous and within the
                agency’s control to take the discount.” We acknowledge EPA’s position, but we
                did not change the recommendation. The IPERA law includes any payment that
                does not account for credit for applicable discounts as part of the definition of
                improper payments. We agree that it some cases it may not be advantageous to
                the agency to take the discount if it compromises internal controls. When
                reporting improper payments, the agency does present narrative detail on its
                processes. For discounts not taken, the agency can include explanations as to the
                reasons why.




7
  OMB Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123, revised
OMB Circular A-123, Appendix C, Parts I and II.
 


12-P-0311                                                                                                   9
                                     Chapter 4

                  EPA Should Address Other 

              Improper Payment Reporting Errors 

            EPA did not correctly calculate improper payments reported in the FY 2011 AFR.
            OMB Memorandum M-11-16 requires inspectors general to evaluate the accuracy
            and completeness of agency reporting. Errors occurred because EPA’s OCFO did
            not issue guidance to ensure the accuracy of improper payment reporting. As a
            result, EPA understated its error rate for SRF programs and made errors in its
            consolidation of improper payment data.

EPA’s SRF Error Rate Calculation Method and Process for
Consolidating Information Resulted in Reporting Errors
            EPA’s error rate calculation method for SRF programs resulted in misleading
            information. EPA tested $1.13 billion in SRF transactions and identified
            $14.18 million in improper payments, which is an error rate of 1.25 percent.
            However, EPA based its error rate on total SRF disbursements of $3.64 billion,
            not the tested subset of $1.13 billion, resulting in a much lower error rate of 0.39
            percent. The error rate should be calculated based on the dollar value tested, and
            not the universe of all disbursements.

            EPA’s process for identifying and accumulating information for the AFR resulted
            in overstatement of recoveries for SRF programs and understatement of improper
            payments for SRFs and commodities. Our limited testing identified a few
            examples of overstatements and understatements, indicating that EPA should
            improve its process for consolidating information for the AFR.

            Table 3: Other errors found in AFR improper payment reporting
             Type of payment       Overstated                Understated
                                   $1,582,544 inaccurately   $40,001 calculation error in amount
             SRF
                                   reported as recovered     reported as improper payments

                                                             $674 calculation error in amount
             Commodity             None                      reported as improper payments

                                                             $266 billing error omitted from AFR
            Source: OIG analysis of EPA data.

            EPA did not provide formal guidance to program offices to ensure consistent
            treatment and accuracy of improper payment reporting because it was awaiting
            further guidance and clarification from OMB. Therefore, EPA’s consolidation
            was not coordinated and the quality of provided information was not ensured.


12-P-0311                                                                                          10
Recommendation
            We recommend that the Office of the Chief Financial Officer:

               4.	 Issue guidance to program offices to ensure the quality of reported
                   improper payment and recaptured payment information.

Agency Response and OIG Evaluation
            EPA concurred with our recommendation and stated that OCFO will issue
            FY 2012 annual guidance to the Office of Administration and Resources
            Management, Office of Water, and the Research Triangle Park Finance Center.
            The proposed completion date is February 2012. The proposed action meets the
            intent of recommendation 4.




12-P-0311                                                                                  11
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                          Subject                            Status1        Action Official             Date      Amount      Amount

     1        5     Issue guidance requiring that the results of all grant     O       Assistant Administrator for   04/30/2012
                    improper payment determinations and recaptures                        Administration and
                    be documented in the compliance database and                        Resources Management
                    reported in the FY 2012 AFR.

     2        6     Continue to track in the Management Audit                  O           Office of the Chief       11/15/2012
                    Tracking System the recommendation in OIG                            Financial Officer and
                    Report No. 11-P-0362—to include in the AFR all                     Assistant Administrator for
                    improper payments identified through EPA reviews                      Administration and
                    and OIG financial and single audits—until the                       Resources Management
                    corrective actions are completed.

     3        9     Report discounts not taken as improper payments            U           Office of the Chief
                    under IPERA, starting with the FY 2012 AFR,                             Financial Officer
                    unless clarification from OMB states otherwise.

     4       11     Issue guidance to program offices to ensure the            O           Office of the Chief       02/29/2012
                    quality of reported improper payment and                                Financial Officer
                    recaptured payment information.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




    12-P-0311                                                                                                                                       12
                                                                                       Appendix A

                   Agency Response to Draft Report
                                       February 9, 2012

MEMORANDUM

SUBJECT:       Response to the OIG Draft Report – Project No. OA-FY11-0674
               “EPA Can Improve Its Improper Payments Reporting”

FROM:          Barbara J. Bennett    Original Signed By:
               Chief Financial Officer

               Craig E. Hooks, Assistant Administrator   Original Signed By:
               Office of Administration and Resources Management

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the findings and recommendations in the subject
draft audit report. Attention to these issues should further strengthen the agency’s fiscal integrity.
Attached is our Corrective Action Plan in response to the specific report recommendations. We
disagree with the recommendation that the Office of the Chief Financial Officer report discounts
not taken as improper payments under the Improper Payments Elimination and Recovery Act
starting with FY 2012 Agency Financial Report unless clarification from the Office of
Management and Budget states otherwise. We believe that the OIG interpretation of improper
payments related to discounts is overly broad given existing laws and other OMB guidance.
Additional analysis on this issue is also attached.

If you have any questions regarding this response, please have your staff contact Stefan Silzer,
Director of the Office of Financial Management on (202) 564-4905, or Howard Corcoran,
Director of the Office of Grants and Debarment, on (202) 564-1903. Thank you.


Attachments

cc: 	Nanci Gelb
     Maryann Froehlich
     Joshua Baylson
     Stefan Silzer
     Jeanne Conklin
     Raffael Stein
     Melvin Visnick



 12-P-0311                                                                                         13
  Janice Kern
  Douglas Barrett
  Howard Corcoran
  Denise Benjamin-Sirmons
  Denise Polk
  Melissa Heist
  Janet Kasper
  Dale Miller
  Meshell Jones-Peeler
  Sheila Frace
  Charles Job
  Guy Hickey
  Sandy Dickens
  Sandy Womack
  Steven Erickson
  Andrew LeBlanc
  Gail Cornwell
  Joe Lucia
  Julie Milazzo
  Sheila Platt
  Howard E. Rubin




12-P-0311                   14
                                                                                     Attachment 1
                                   Corrective Action Plan
                          Office of Inspector General Draft Report,
                    “EPA Can Improve Its Improper Payments Reporting”
                     Project No. OA-FY11-0674, dated January 25, 2012
Rec.      OIG Recommendation           Action         Proposed Corrective             Proposed
No.                                   Official(s)            Action                 Completion Date

1.     Issue guidance requiring that   Office of         1.1 OARM agrees with       April 2012
       the results of all grant        Administration    this recommendation.
       improper payment                and Resources     OARM prepared draft
       determinations and              Management        guidance, which was
       recaptures be documented in                       shared with OCFO and
       the compliance database and                       OIG. Both offices
       reported in the FY 2012                           concurred with the
       Agency Financial Report.                          general approach of the
       [WP B-06 Attachment 1 -                           guidance.
       IPERA Compliance 2011
       audit draft report, pg 6                          OARM is in the process
       Recommendation 1]                                 of completing additional
                                                         refinements to the draft
                                                         guidance for appropriate
                                                         agency review and final
                                                         issuance.

2.     Continue to track in the        Office of Chief   2.1 OCFO re-opened         Completed
       Management Audit Tracking       Financial         corrective actions 1.2 and February 7, 2012
       System the recommendation       Officer/          1.3 from OIG Report No.
       in OIG Report No. 11-P-         OARM              11-P-0362.
       0362—to include in the AFR                        Recommendations will
       all improper payments                             remain open until the
       identified through EPA                            corrective actions are
       reviews and OIG financial                         completed.
       and single audits—until the
       corrective actions are                            2.2. OGD will include in   November 15,
       completed.                                        the AFR all improper       2012
                                                         payments identified
                                                         through EPA resolved
                                                         reviews and OIG
                                                         financial and single
                                                         audits.

3.     Report discounts not taken as OCFO                3.1 OCFO respectfully      No Action
       improper payments under the                       disagrees with this        Required
       Improper Payments                                 recommendation. We



     12-P-0311                                                                                   15
Rec.      OIG Recommendation              Action         Proposed Corrective         Proposed
No.                                      Official(s)             Action            Completion Date
       Elimination and Recovery                        believe the OIG’s
       Act of 2010, starting with the                  interpretation of
       FY 2012 AFR, unless                             improper payments
       clarification from OMB                          related to discounts is
       states otherwise.                               overly broad given
                                                       existing laws and other
                                                       OMB guidance. In the
                                                       EPA’s view, “applicable
                                                       discounts” are only those
                                                       where it is both
                                                       advantageous and within
                                                       the agency’s control to
                                                       take the discount.

                                                       See Page 3, Response to
                                                       Recommendation 3.1 -
                                                       Discounts Not Taken, for
                                                       details.


4.     Issue guidance to program        OCFO           4.1 OCFO will issue FY      February 2012
       offices to ensure the quality                   2012 annual guidance to
       of reported improper                            OARM, OW, and the
       payment and recaptured                          RTP Finance Center.
       payment information.




     12-P-0311                                                                                16
                                                                                         Attachment 2
                   Response to OIG Draft Report – Project No. OA-FY11-0674
                       Recommendation 3.1: Discounts Not Taken


In Chapter 3 of the OIG’s Draft Audit, Project No. OA-FY11-0674, the OIG recommends that
OCFO “[r]eport discounts not taken as improper payments under IPERA, starting with the FY
2012 AFR, unless clarification from OMB states otherwise.”8

The agency respectfully disagrees with the OIG’s interpretation of the definition of improper
payments, and requests the OIG revise the draft report to state, “We recommend that the Office
of the Chief Financial Officer report discounts not taken as improper payments under IPERA
when it is both advantageous and within the agency’s control to take the discount.” Our reasons
for disagreement are outlined below:

1) The agency respectfully disagrees with the OIG’s interpretation that all discounts not taken
   are de facto improper payments. Our divergence of opinion stems from conflicting
   interpretations of Office of Management and Budget Circular A-123, Appendix C, which
   states, in relevant part, that an improper payment consists of “any payment that does not
   account for credit for applicable discounts.” In our opinion, the term “applicable discounts”
   requires some discernment. The agency strongly believes that “applicable discounts” are only
   those discounts where it is both advantageous and within the agency’s control to claim them.

2) There are valid reasons why certain discounts cannot be taken. In such cases, discounts
   should be considered “non-applicable” for improper payments reporting purposes. These
   situations include the following:
       a.	 When the late receipt of an invoice or late receipt of goods or services prevent the
           agency from being able to take the discount. Prior to making payment, the agency
           must receive the goods/services, invoices, and appropriate documentation in a timely
           manner. Payment cannot occur within the discount window if the invoice or
           goods/services are received late.
       b.	 When the Effective Annual Rate offered in the discount is less that the Treasury
           Current Value of Funds rate. If the discount offered is less that the Current Value of
           Funds, it is not advantageous for the agency to take the discount.9
       c.	 When the invoice approval and payment process must be rushed for the sake of
           claiming a discount, if doing so would erode established internal control procedures.
           Before making a payment, the agency ensures that appropriate payment
           documentation is established to support payment of invoices. The agency requires
           approval of all invoices prior to payment, which is in compliance with the Prompt
           Payment Act. Furthermore, the agency notifies Project Officers/Approving Officials
           of any invoices offering a discount and also encourages timely approval, but cannot
           force officials to approve invoices without their due diligence in the review process.

8
  Project No. OA‐FY11‐0674, p. 8.
 
9
  Treasury’s Financial Management Services website provides a discount calculator at
 
http://www.fms.treas.gov/prompt/discount.html  


    12-P-0311                                                                                     17
             Doing so would compromise securing “adequate documentation” to support the
             payment, which in itself is a root cause of error for improper payments.

             Therefore, discounts should be claimed to the extent possible, but only insofar as
             internal controls can be assured. This position is supported by OMB’s September 14,
             2011 memorandum #M-11-32, “Accelerating Payments to Small Businesses for
             Goods and Services”, which encourages agencies to pay small business contractors
             within 15 days while also maintaining necessary internal controls. Specifically, it
             states, “To the extent practicable, Federal agencies shall establish a goal of paying
             small business contractors within 15 days of receiving proper documentation… At the
             same time, agencies need to ensure expeditious processing throughout (including
             inspection and acceptance) to facilitate prompt payment to small businesses, while
             also maintaining necessary internal controls” [emphasis added]. This demonstrates
             that the maintenance of internal controls is of fundamental importance for federal
             agencies and must be balanced against the necessity of paying discounts quickly.

The agency acknowledges that there are some situations in which discounts ought to be reported
as improper payments. For example, the agency may inadvertently take the wrong discount
percentage or may take a discount beyond the specified discount period. These situations clearly
lie within the agency’s realm of control and should therefore be reported as improper payments.
Even with the OIG’s broad interpretation of improper payments, it should be noted that EPA
performed extremely well in claiming applicable discounts offered by vendors in FY 2011. The
RTP Finance Center successfully claimed 666 discounts worth $333,641 while only foregoing
$45,940 of discounts not taken. The claimed discount amount represents 88 percent of the dollar
value of all discounts offered to the agency, resulting in clear savings to the taxpayer.




 12-P-0311                                                                                     18
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Water
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management




 12-P-0311                                                                               19
